Certificate of word compliance
In compliance with United States Supreme Court rule 33(h) and pursuant to 28 U. S. C. ยง17461,
Zhi Gang Zhang, pro se petitioner certify that the word count for this Petition for Writ of
Certiorari including foot note is 8129 in total excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d)..

I declare under penalty of perjury that the foregoing is true and correct.

Signature,

Zhi Gang Zhang
Executed on this 2nd day of December 2019
Pro Se Petitioner/Plaintiff /Appellant, Zhi Gang Zhang
2508 Primrose Lane
Aberdeen, SD 57401
(612) 270-2859
e- Mail: zhang443@abe.midco.net

Subscribed and Sworn to before me this 2nd day of December 2019.
Notary Public
My Commission Expires on

(3 - X' 20 X3

(

BRADY HAAR
Notary Public
SEAL
South Dakota

